!

No.

^0^58 36
FILED"
AUG 0 4 2020
L o.^!?Jo^th^lerk

IN THE
SUPREME COURT OF THE UNITED STATES

Matthew .Tones

-PETITIONER

Vs.
Police Captain Alice Brumblev ‘RESPONDENT
ON A PETITION FOR A WRIT OF CERTIORARI TO

E

I
I
I

Delaware Supreme Court_
PETITION FOR A WRIT OF CERTIORARI

Matthew Jones
11366 Sussex Highway
Greenwood, Delaware 19950
(302) 349-5251
AzraelLinusSmith@gmail.com

I
»

l

»

i

I
I
I

QUESTIONS PRESENTED

1. Do government employees enjoy immunity from committed crimes and
civil prosecution?
2. Must a plaintiff prove the facts of the Case in the Complaint and Opening
Stages of tiie Case?

;

LIST OF PARTIES

[ X ] All parties appear in the caption on the cover page.

»
»

l

I

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

,2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

5

EVENTS

8

REASONS FOR GRANTING THE WRIT

10

CONCLUSION

14

INDEX TO APPENDICES

i
»

P

I
I

APPENDIX A

Order of the Delaware Supreme Court

APPENDIX B

Order of the Delaware Superior Court

APPENDIX C

Original Complaint

TABLE OF AUTHORITIES CITED

CASES

PAGE

NUMBER
1. Phillips v. County of Allegheny 515 F. 3d 224,229 (3d Cir. 2008)....5
2. State v. Lodermeier (S.D. 1992)

6

3. Ex Parte Young (1908) 209 U.S. 123

6

4. Martin v. Voinovich 840 F. Supp. 1175 (1993)

6

5. Clinton v. Jones, 520 U.S. 681 (1997)

6

6. Doe v. Cates 499 A.2d 1175(Del.l985)

6

7. Smith v. New Castle County Vocational Technical School District 574 F.

5

Supp. 813 (D.Del 1983)

6

8. Sherman v. State Department of Public Safety, 190 A. 3d 148 Supreme

»

i
i

I

i
»

Court of Delaware (2018)
9. Brookfield Const. Co. v. Kozinski, 284 F. Supp. 94

6
1

STATUTES AND RULES
1. U.S. Constitution, Article 3 Section 2

5

2. 42 U.S.C. Section 1983

5

3. 8th Amendment

5

i

»

i
I

I
I
I

4. 14th Amendment

5

5. Del. Code Title 11 Subsection 205 (e)

6

6. 18 U.S. Code §2255

6

7. 28 U.S. Code § 2674

6

8. 28 U.S. Code § 1442

6

9. Delaware Code Title 10 Chapter 40 (c)

6

10. Article 1 Section 9 of the Delaware Constitution

6

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the
judgments below.

OPINIONS BELOW

[X ] For cases from state courts:

l

i
i

The opinion of the Delaware Supreme Court, Case Number 546,2019, appears
at Appendix _A_ to the petition and is
[ X] not reported

»

I
I

The opinion of the Superior Court of Delaware, Case Number S19C-10-32,
appears at Appendix _B_ to the petition and is
[X ] not reported.

1

>

JURISDICTION

[X ] For cases from state courts:
>
>

>
>

The date on which the Delaware Supreme Court decided my case was
June 5th. 2020.

The jurisdiction of this Court is invoked under 28 U.S.C.§ 1254 (1) and 28 U.S.
Code § 2101 .

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

I

1. Phillips v. County ofAllegheny 515 F. 3d 224, 229 (3d Cir, 2008)

I

2. U.S. Constitution, Article 3 Section 2

>

3. 42 U.S. Code 1983 Civil Rights
4. 14th Amendment to the U.S. Constitution
5. 8th Amendment to the U.S. Constitution
6. Del. Code Title 11 Subsection 205 (e)
7. State v. Lodermeier (S.D. 1992)
8. 18 U.S. Code § 2255
9. Ex Parte Young (1908) 209 U.S. 123
10. Martin v. Voinovich 840 F. Supp. 1175 (1993)
11. Clinton v. Jones, 520 U.S. 681 (1997)
12. 28 U.S. Code § 2674
13. 28 U.S. Code § 1442
14. Delaware Code Title 10 Chapter 40 (c)
15. Article 1 Section 9 of the Delaware Constitution
16. Doe v. Cates 499 A.2d 1175(Del.l985)
17. Smith v. New Castle County Vocational Technical School District 574 F
Supp. 813 (D.Del 1983)
>

I
\
>

3

I
I
I

18. Sherman v. State Department ofPublic Safety, 190 A. 3d 148 Supreme
Court ofDelaware (2018)
19. Brookfield Const. Co. v. Kozinski, 284 F. Supp. 94

4

i
STATEMENT OF THE CASE

I
I
I
I

t

\
)
)

“The Court must accept all factual allegations in a complaint as true and
take them in a light most favorable to a pro se plaintiff,” Phillips v. County of
Allegheny 515 F. 3d 224, 229 (3d Cir. 2008).
U.S. Constitution, Article 3 Section 2, states “The judicial power shall
extend to all cases, in law and equity, arising under this Constitution, the laws of
the United States, and treaties made, or which shall be made, under their
authority;—to all cases affecting ambassadors, other public ministers and
consuls;—to all cases of admiralty and maritime jurisdiction;—to controversies
to which the United States shall be a party;-to controversies between two or
more states;~between a state and citizens of another state;—between citizens of
different states;—between citizens of the same state claiming lands under grants
of different states, and between a state, or the citizens thereof, and foreign
states, citizens or subjects.”
42 U.S.C. Section 1983: Anyone under color of law who causes or
subjects anyone in U.S. jurisdiction to the deprivation of any Constitutional
rights shall be liable to the injured party in an action of law. The 14th
Amendment makes the 8th Amendment applicable to the States. The 8th
Amendment protects me from cruel and unusual punishments.

5

»
»

Prosecution of a crime defined as a "sexual offense" by section 761, can
be commenced at any time. Prosecution of a class A felony (rape in the 1st
degree) may be commenced at any time.There is no statute of limitations for

I
I
»

\
>
>

these sex offenses in Delaware (Del. Code Title 11 Subsection 205 (e)). In
judging the statute of limitations for various crimes, it is akin and similar to the
receiving of stolen goods. The statute does not begin to run on continuing
offenses until the offense ends, State v. Lodermeier (S.D. 1992). The U.S. Code
civil remedy for a sexual violation is $150,000 per time, per violation, 18 U.S.
Code §2255.
The U.S. Supreme Court ruled in Ex Parte Young (1908) 209 U.S. 123
that police officers and precincts may be sued. Martin v. Voinovich 840 F. Supp.
1175 (1993) and Clinton v. Jones, 520 U.S. 681 (1997) maintained that
government employees, even the highest ranking, are not immune to being held
to our laws. 28 U.S. Code § 2674,28 U.S. Code § 1442, and Delaware Code
Title 10 Chapter 40 (c) establish that government employees, including police
officers, and police stations, can be held liable to tort claims. Article 1 Section 9
of the Delaware Constitution explicitly writes that the State can be sued. It is
supported by Delaware Case Law in Doe v. Cates 499 A.2d 1175(Del.l985), and
Smith v. New Castle County Vocational Technical School District 574 F. Supp.
813 (D.Del 1983). Sherman v. State Department ofPublic Safety, 190 A. 3d 148

6

»

I
I

Supreme Court ofDelaware (2018) dismissed State claims of sovereign
immunity when a police officer raped a woman in custody in New Castle
County.
“An officer who acts in violation of the Constitution ceases to represent
the government”, Brookfield Const. Co. v. Kozinski, 284 F. Supp. 94.

7

EVENTS

I sued Police Captain Alice Brumbley, leader of the Delaware State
Police Troop 5, for Civil Rights violations occurring during the commission of
many heinous and unconscionable crimes committed by the Police Captain and
her police officers against me. The crimes included, but were not limited to,
Attempted Murder, Rape, Battery, and Pedophilia.
For more than 10 years, an barrage of police officers, including the
Captain, came unprovoked to my mother’s home, more than once a month, to
assault, batter, and rape me. The rapes were so violent that they should be
considered attempted murder. They did permanent damage to my body. If I do
not receive expensive treatments involving stem cells in the near future, I will
die from their woundings. The police officers often came to my home in
uniform. They led me and my mother to separate bedrooms. While one or more
of the officers guarded my mother in my room, one or more of the officers
forced me into her bedroom. Once there, I was forced to disrobe. The police
officers often brought a small amount of cocaine and forced me to use it. I was
often handcuffed to my bed post. Next, I was forced to give each officer oral
sex. Once they were erect, they would anally penetrate me. The anal sex was
violent, with me always resisiting. They would bend and contort my body in

8

extreme ways. My anus would always bleed. When they were through, they
always threatened me not to tell anyone before they left. They said that nothing
would change if I told anyone about it.
The rapes caused my facial hair to grow sparsely. My hair color changed
from blonde to brown to black to red. I never grew hair on my chest. Hair fell
off my legs. My muscles and bones never fully developed. I developed obesity,
high sugar, high cholesterol, and heart diseases. Some of my fingers and toes,
and my nose remains out of position.
On December 3,2019, The Superior Court of Delaware Ordered that my
claims were “factually frivolous because they are based on delusional factual
scenarios.” Judge Craig Karsnitz found that the claims were “malicious.” The
Court wrote that it “forewarned” me that if I file another complaint based on
these “delusions” that I will be subject to the impositions of “substantial
sanctions pursuant to the Superior Court Civil Rule 11.” On June 5th, 2020, the
Order of Chief Justice Seitz, and Justices Valihura and Vaughn, Affirmed the
Decision.

9

REASONS FOR GRANTING THE PETITION

My lawsuits are accurate accounts of the timeline of my life spent being
victimized, persecuted, battered, and otherwise injured. Mainly, nearly all of my
assailants have been employees of the U.S. Judicial Branch of Government, its
Police Powers, and its State Actors. My life may be ending, and my cause of
death will be that I was treated illegally by your office of government. My blood
is on your hands. This case may be your final opportunity to affirm the laws of
the United States, the U.S. Constitution, the Delaware Code, and the U.S. Case
Law. In past cases, Judges have decided to treat me as a criminal for reporting
criminal activity.
From my birth until the age of puberty, I was used as a sex slave. In the
first years that I was able to, when I was 16 years old, I sued for relief from it in
the Delaware Superior Court. My lawsuit’s dismissal laid the foundation for my
persecutions that were yet to come.
The Superior Court found me to be delusional and my claims to be false.
In the years following die judgment, it helped change my status from the highest
ranking student in Delaware (a President’s Education Award winner, the
recipient of the highest score on the Delaware State Test, a student who started
attending college in the 8th Grade), to the status of a dangerous mental patient

10

who is a threat to myself and others. For years after my initial hospitalizations, I
was medicated too highly to function or defend myself from the diagnosis. My
health was also failing from the innumerable rapes and beatings, and also from
the medications. Part of the healing from something as severe as anal rape is the
body shutting down to recover.
By the time that I reached adult age, I had lost all Of my friends. Dead:
due to pedophilia, police and gang violence, and drug abuse. The few survivors
who started kindergarten with me were a mix of those in jail, those living in
identity theft (possibly on the police force or working for a mobile crisis unit),
the few that had married, a few that dropped out of school to start working at a
young age, and a few who had greatly relocated.
To seek relief, I contacted every law firm in Sussex and Kent Counties. I
contacted over 150 law firms in New Castle County, Delaware, and the
Philadelphia, Pennsylvania, area. No one was interested in doing pm bono
work, working for an affordable rate, Or working for a percentage of potential
monies won. No one was interested in working for me for the public good.
My mental health Court ordered diagnosis states that I cannot
communicate on my own. This includes writing and speaking. It states that I
cannot control my body movements. It states that I cannot stay in a
consciousness that is in reality. This is a long standing diagnosis that still holds.

11

